WR-B-02-02




          AUDIT
         REPORT

                                  GRANT ADMINISTRATION AT THE
                                  OAKLAND OPERATIONS OFFICE




                                             JANUARY 2002




     U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                   U. S. DEPARTMENT OF ENERGY
                         Washington, DC 20585

                             January 15, 2002

         MEMORANDUM FOR THE MANAGER, OAKLAND OPERATIONS OFFICE

FROM:                 Lawrence R. Ackerly, Regional Manager (Signed)
                      Western Regional Audit Office
                      Office of Inspector General

SUBJECT:              INFORMATION: Audit Report on "Grant Administration at the
                      Oakland Operations Office"

BACKGROUND

The Department of Energy (DOE) issues science and technology (S&T) grants to advance
scientific research in fields important to DOE and the nation's welfare, such as health, the
environment, fusion energy, high energy physics, scientific computing, and basic energy
science. Grantees are to document the scientific and technical information (STI) that results
from their work in technical reports—interim and final—and provide the reports to DOE. DOE's
goal is to make the STI available to the scientific community and the general public.

Three principal offices within DOE are involved in carrying out S&T grant activities.
Typically, Headquarters program offices, such as the Office of Science, have management
responsibilities, including soliciting and selecting recipients for grant awards, and evaluating
grant results. DOE field offices, such as the Oakland Operations Office (Oakland), have
administrative responsibilities, including preparing and issuing the grant document, monitoring
grantee compliance with the terms and conditions of the grant, and closing out the grant. DOE's
Office of Scientific and Technical Information (OSTI) is responsible for preserving grantee
technical reports and making the reports available to the public.

Recent Office of Inspector General (OIG) audits at the Albuquerque Operations Office
(Albuquerque) and the Environmental Molecular Sciences Laboratory (EMSL) disclosed
problems with collecting grantee deliverables and forwarding research results to OSTI. A
September 2001 audit report showed that Albuquerque was not receiving many of the reports
specified in the grants. The audit at EMSL disclosed that most of the results of nonproprietary
research done at the laboratory were not collected and forwarded to OSTI.

The OIG performed this audit of grants administered by Oakland to determine whether DOE
was receiving technical reports specified in its S&T grants and making the grant results
available to the public.

RESULTS OF AUDIT

Although DOE received most of the technical reports specified in its S&T grants, many of the
results were not sent to OSTI for dissemination to the scientific community and the public.
During Fiscal Years (FY) 1998 through 2000, Oakland administered about 1,953 S&T grants—
worth about $1.84 billion—that required STI reports. We estimated that some technical reports
for about 1,237 of these grants were not sent to OSTI. Technical reports were not sent to OSTI
because Oakland issued many grants that did not require grantees to provide technical reports
to it. In addition, Oakland lacked procedures for tracking the collection of reports and the
forwarding of reports to OSTI. Grant results can be of significant benefit to the scientific
community and public in promoting scientific advancement, thereby ensuring a fair return on
DOE and taxpayer investment. When research results are not made available to the public,
scientific progress may be delayed.

To strengthen grant administration, we recommended that Oakland (1) establish procedures
that call for all grants to contain the requirement that all technical reports be sent to the
Oakland contract specialists, (2) establish procedures for tracking the collection of technical
reports, (3) establish procedures for ensuring that technical reports collected are sent to OSTI,
and (4) develop performance measures related to collecting and forwarding technical reports.

MANAGEMENT REACTION

Management concurred with the recommendations. However, management's approach to
implementing the recommendations did not fully address the problems identified in the report.
In addition, management disagreed with some of the audit results.
GRANT ADMINISTRATION AT THE OAKLAND OPERATIONS
OFFICE

TABLE OF
CONTENTS




                Overview

                Introduction and Objective ............................................... 1
                Conclusions and Observations ........................................ 2


                Technical Reports Not Made Available to the Scientific
                Community


                Details of Finding ............................................................ 3
                Recommendations and Comments ................................. 5


                Appendices


                Scope and Methodology.................................................. 9
                Sampling Objective, Technique, and Evaluation ........... 10
                Related Reports ............................................................ 11
                Management Comments ............................................... 13
OVERVIEW

INTRODUCTION AND   The Department of Energy (DOE) issues science and technology (S&T)
OBJECTIVE          grants to advance scientific research in fields important to DOE and the
                   nation's welfare, such as health, the environment, fusion energy, high
                   energy physics, scientific computing, and basic energy science.
                   Grantees are to document in technical reports (interim and final) the
                   scientific and technical information (STI) that results from their work
                   and provide the reports to DOE. DOE's goal is to make the STI
                   available to the scientific community and the general public.

                   Within DOE, three principal offices are involved in carrying out S&T
                   grant activities. Typically, Headquarters program offices, such as the
                   Office of Science, maintain management responsibilities, including
                   soliciting and selecting recipients for grant awards and evaluating grant
                   results. For many of the grants, DOE field offices have administrative
                   responsibilities, including preparing and issuing the grant document,
                   monitoring grantee compliance with the terms and conditions of the
                   grant, and closing out the grant. During Fiscal Years (FY) 1998
                   through 2000, for example, the Oakland Operations Office (Oakland)
                   administered about 1,953 S&T grants, worth $1.84 billion, that required
                   STI reports. DOE's Office of Scientific and Technical Information
                   (OSTI) is responsible for preserving grantee technical reports and
                   making the reports available to the public. OSTI has established a
                   web-based system to allow the scientific community and the public to
                   access the reports.

                   In 1997, the Office of Inspector General (OIG) issued two reports
                   regarding weaknesses in DOE's management of its grant programs and
                   publication of unclassified STI. The reports disclosed that grantees
                   were not providing the final technical and/or financial reports after
                   completion of the grant projects and that OSTI was not receiving all
                   STI generated by DOE's management and operating contractors. In
                   response to these issues, DOE required financial assistance centers to
                   monitor the receipt of interim and final technical reports from grantees
                   and to provide these technical reports to OSTI. DOE also established
                   requirements and responsibilities to ensure that STI is identified,
                   processed, and made available for use by others.

                   Recent audits have disclosed that similar problems continue to exist.
                   For example, Albuquerque Operations Office's Grant Administration,
                   DOE/IG-0524, September 2001, showed that Albuquerque was not
                   receiving final or interim deliverables specified in many of its grants
                   awarded for research and development, education, as well as state and
                   local activities. This occurred because Albuquerque did not have
                   formal procedures in place to identify deliverables that were due.

Page 1                                                        Introduction and Objective
                  In addition, Dissemination of Research from the Environmental
                  Molecular Sciences Laboratory, DOE/IG-0526, September 2001, found
                  that research results or deliverables for 94 of 153 completed research
                  projects had not been received, and that 640 of 700 deliverables
                  received had not been forwarded to OSTI. This occurred because the
                  management system did not identify deliverables that were due.
                  Further, contractor and DOE officials claimed that they did not fully
                  understand the requirements for sending research results to OSTI.
                  Other related OIG reviews are presented in Appendix 3 of this report.

                  In light of the prior findings and DOE's responses to those findings, the
                  audit objective was to determine whether DOE was receiving technical
                  reports specified in its S&T grants and making the grant results
                  available to the public.

                  Although DOE received most of the technical reports specified in its
CONCLUSIONS AND   S&T grants, many of the results were not sent to OSTI for access by the
OBSERVATIONS      scientific community and the general public. For the 1,953 grants that
                  Oakland administered during FYs 1998 through 2000, we estimated
                  that technical reports for about 1,237 of the grants were not forwarded
                  to OSTI. The reports were not forwarded because Oakland did not have
                  procedures to facilitate their collection and forwarding. Grant results
                  can be of significant benefit to the scientific community and public in
                  promoting scientific advancement, thereby ensuring a fair return on
                  DOE and taxpayer investment. We estimated that DOE spent
                  $1.16 billion on grants for which not all technical reports were made
                  available to the scientific community and the public through OSTI.

                  The audit identified issues that management should consider when
                  preparing its year-end assurance memorandum on internal controls.




                                                   ________(Signed)_______
                                                   Office of Inspector General




Page 2                                                  Conclusions and Observations
TECHNICAL REPORTS NOT MADE AVAILABLE TO THE
SCIENTIFIC COMMUNITY
Technical Reports Not     Technical reports from grantees were not forwarded to OSTI for use by
Forwarded To OSTI         the scientific community and the general public. Of the 30 grants
                          reviewed, 19 had technical reports that were not forwarded to OSTI.
                          For example:

                          •   A 1993 grant was intended to improve oil recovery by developing
                              filters to separate contaminants from oil or natural gas. Although
                              the grantee sent all seven interim reports to the DOE program
                              manager as required, no reports were forwarded to OSTI as of
                              February 1, 2001. The final report is not due until January 2002.
                              The total award for this ongoing grant was $721,308.

                          •   A 1997 Small Business Innovative Research grant had a goal of
                              providing better understanding of how to increase the productivity
                              of existing oil wells. As of February 1, 2001, DOE had received the
                              four interim reports and a final report for Phase I of this grant;
                              however, three of the interim reports were not forwarded to OSTI.
                              The final report covering Phase II is not due until March 2002. The
                              total award was $822,691.

                          •   In 1997, Oakland awarded a grant that had the goal of developing
                              and testing a sorbent-based process for recovering all species of
                              mercury from contaminated liquid wastes found and expected to be
                              generated in the DOE complex. As of February 1, 2001, DOE had
                              received the two interim reports on April 15, 1998, and October 12,
                              1999, and the final report on September 1, 2000; however, none of
                              the reports were forwarded to OSTI. The grant was in closeout.
                              The total award was $824,230.

                          Overall, 37 of the 51 required interim and final reports were not
                          forwarded to OSTI. Based on these results for the 30 grants reviewed,
                          we projected that technical reports for 1,237 of the 1,953 S&T grants
                          administered by Oakland were not forwarded to OSTI for use by others.


Receiving And Making      According to DOE Order 241.1A, DOE will identify, process, and
Technical Reports         preserve STI resulting from DOE research and related endeavors,
Available Is DOE Policy   including STI that is generated from S&T grants. In addition, DOE will
                          make the preserved STI broadly available so that the scientific
                          community and the public can locate and use this information to
                          advance science, thereby ensuring a fair return on DOE and taxpayer
                          investment.




Page 3                                                                      Details of Findings
                          To meet the requirements of DOE Order 241.1A, DOE's Office of
                          Procurement and Assistance Policy issued Financial Assistance Letter
                          (FAL) 98-2, dated April 17, 1998. This FAL required grant-awarding
                          organizations, such as Oakland, to monitor the receipt of interim and
                          final technical reports from grantees and provide those reports to OSTI.


                          Technical reports were not forwarded to OSTI because Oakland did not
Procedures Not
                          establish procedures to facilitate their collection and forwarding.
Established For
                          Specifically, not all grants issued by Oakland required grantees to
Collection And
                          provide a copy of all technical reports to Oakland. In addition, Oakland
Forwarding Of Technical
                          lacked procedures for tracking the collection of reports that it did
Reports
                          receive from the grantees and the forwarding of the reports to OSTI.

                          Even though Oakland issued the grants and was to ensure that all
                          technical reports were collected and forwarded to OSTI, Oakland did
                          not identify itself as a report recipient in many of the grants it issued.
                          Grantees were not required to forward technical reports to Oakland for
                          14 of the 30 grants reviewed. Instead, the reports were to be provided
                          to the program manager at DOE Headquarters. Because there was no
                          requirement for the program managers at Headquarters to send a copy
                          of these technical reports to Oakland or to OSTI, 23 of the 29 technical
                          reports provided to program managers were never received by Oakland
                          and forwarded to OSTI.

                          For grants specifying that Oakland was to receive technical reports,
                          Oakland lacked procedures for tracking the collection and forwarding
                          of the reports. To administer its grants, Oakland used the Contract
                          Management Information System. However, this system lacked
                          features for notifying Oakland when reports were due and tracking the
                          dates reports were received and the dates reports were forwarded to
                          OSTI.

                          We assessed whether there were performance measures established
                          under The Government Performance and Results Act of 1993 related to
                          the collection and forwarding of technical reports. We determined that
                          Oakland did not have any performance measures addressing these
                          issues.


Promoting Scientific      When technical reports and the information they contain are not
Advancement And           forwarded to OSTI, it is questionable whether the taxpayer is receiving
Ensuring A Fair Return    full value for the funds spent on grants. The information can
On Investment             significantly benefit the scientific community and public in promoting


Page 4                                                                        Details of Findings
                  the advancement of science, thereby ensuring a fair return on DOE and
                  taxpayer investment. When research results are not made available,
                  scientific progress may be delayed.

                  DOE spent $30 million on the 19 grants for which not all technical
                  reports were provided to OSTI. Based on our audit results, we estimate
                  that there were 1,237 of the 1, 953 S&T grants administered by
                  Oakland where not all technical reports were provided to OSTI.


RECOMMENDATIONS   We recommend that the Manager, Oakland Operations Office:

                  1. Establish procedures that call for all grants to contain the
                     requirement that all technical reports be sent to the Oakland contract
                     specialists;

                  2. Establish procedures for tracking the collection of technical reports;

                  3. Establish procedures for ensuring that technical reports collected are
                     sent to OSTI; and,

                  4. Develop performance measures related to collecting and forwarding
                     technical reports.


MANAGEMENT        The Oakland Operations Office generally concurred with our
REACTION          recommendations but stated that the data collected by the OIG did not
                  accurately represent the number of reports not forwarded to OSTI.
                  Specifically, management questioned our interpretation of whether: (1)
                  all interim and final reports should be sent to OSTI; (2) FAL 98-2
                  guidance should be applied to grants awarded prior to 1998; (3) we
                  appropriately accessed the Technical Information Monitoring System
                  (TIMS); and (4) information is being received by the scientific
                  community.

                  Each of these concerns, along with our response, is discussed more
                  fully below. We have also attached management's comments in their
                  entirety at Appendix 4. In addition, we held follow-up discussions with
                  Oakland management to clarify our understanding of the written
                  comments they provided.




Page 5                                             Recommendations and Comments
         Interim and Final Reports

         Management stated that the OIG mistakenly based its calculation of the
         number of reports that should have been forwarded to OSTI based on
         FAL 98-2, which states that all interim and final reports should be
         forwarded to OSTI. Management stated that Oakland has conducted its
         own review and believes the OIG may have misinterpreted the number
         of reports required to be submitted to OSTI. In two-thirds of the
         audited grants, the reporting checklist indicated a range from 3-7
         copies, which includes discretionary reports. Although the number of
         copies may be 7, it is only 1 required report and if the reports are
         discretionary then no reports would be required.

              OIG Response: We were aware that the reporting checklist
              indicated a report submission range of 3-7 copies. In determining
              the number of reports that should go to OSTI, we counted the
              multiple copies of a particular submission as one report. Further,
              in determining the number of STI reporting requirements for each
              grant, only those requirements documented in the reporting
              checklist of each respective grant were counted. After follow-up
              discussion on this issue, management was satisfied that we
              appropriately accounted for the number of required reports.

         FAL 98-2

         Management stated that FAL 98-2 became effective April 1998 and its
         new requirements were not applied retroactively to existing grants. Of
         the grants reviewed, 10 grants were awarded after 1998. Only 3 grants
         have expired, which require 1 informal report and the final report. Only
         1 grantee has not submitted the final report; however, this grant has a
         90-day period after performance to submit the final report. The
         remaining 16 grants are still active and therefore final reports are not
         due and cannot be collected and forwarded to OSTI. Therefore, the
         FAL's requirement to forward technical reports – whether interim or
         final – did not apply to the majority of grants reviewed. Management
         stated that a sample of 10 grants was too small to arrive at the auditor's
         conclusions. In addition, OSTI no longer accepts a hard copy of reports
         and requested electronic reporting or that hard copies of reports be kept
         with the official grant files. However, interim copies of reports are only
         being sent to the Program Manager and are not available to the official
         file. The interim reports are viewed as informal and may not have
         significant dissemination value to the public.




Page 6                                    Recommendations and Comments
            OIG Response: The FAL required that contracting activities
            initiate immediate follow-up action when a report has not been
            received in accordance with the grant award. There was no
            qualification that the FAL requirement applied only to grants
            issued after April 1998. All 30 grants in our sample were active
            when FAL 98-2 was issued and 23 of the grants questioned
            required reports after FAL 98-2 was issued. Therefore, we
            disagree with management's position that the sample was too
            small to evaluate and draw conclusions from. Moreover, based
            on management's comments and our subsequent conversations on
            this issue, we agreed that the numbers in this report should reflect
            only those interim and final STI reports that were required to be
            submitted after the FAL 98-2 implementation. The benefit of
            transmitting interim and final STI reports to OSTI as hard copies
            or electronic copies as well as the location of the official copy of
            interim reports was not evaluated as part of our review. Our
            focus was whether the STI was received and made available to
            the public.

         TIMS

         Management stated the TIMS was not accessed by the OIG. OSTI is
         responsible for updating the OSTI system from the information
         reported to TIMS and Oakland stated there is currently a backlog of
         information to update from TIMS. Therefore, the OIG has drawn the
         conclusion on the number of reports not found in the OSTI as the
         valid number when in fact a larger number of reports are in the
         TIMS. In addition, management stated the Office of Science reached
         an agreement with OSTI to only submit the final technical report for
         dissemination to the public, which reduces the number of reports to
         be submitted.

            OIG Response: We did not initially use TIMS data, but relied
            instead on information provided to us by OSTI. Based on
            management's comments, however, we compared our data to
            TIMS and found no significant differences. With regard to the
            issue of whether only final technical reports must be submitted,
            the Office of Procurement and Assistance Policy informed us that
            any interim technical deliverables that contain STI must be
            submitted to OSTI. Only interim reports that do not contain STI
            would be exempt from this requirement.




Page 7                                   Recommendations and Comments
         Information Distribution

         Management stated that the OIG's conclusion that the scientific
         community is not receiving information was inaccurate. According
         to management, the OIG accepted FAL 98-2 as the source for
         determining the reporting requirements and therefore concluded that
         information not being made available to OSTI has not been
         disseminated to the scientific community. Management stated that,
         as a means to further release information to the public and scientific
         community, the Office of Science encourages grantees to publish in
         scientific journals and disseminate their progress and findings at
         conferences within the scientific community. This release of
         information to the scientific community is believed to be more timely
         and beneficial to the public at large. It is management's
         understanding that grantees are, in fact, publishing the progress and
         results of their work and presenting this information at conferences.

              OIG Response: We recognize that researchers use other means,
              such as conferences and white papers, to share the results of
              their work. However, DOE Order 241.1 was established to
              ensure that STI is identified, processed, and preserved in a
              manner that enables the scientific community and public to
              locate and use the STI resulting from DOE's research. Thus,
              DOE and Oakland still have a responsibility to ensure all STI,
              whether interim or final, is provided to OSTI.

         Summary Comments

         Management concluded its general comments by stating that Oakland
         had complied with the intent of FAL 98-2, had submitted more
         reports than required, and had met the reporting requirement as set
         for by the Office of Science. Additionally, management stated that
         Headquarters was in the process of revising FAL 98-2 and would
         address the requirement for submission of reports for new, renewed,
         and existing grants.

              OIG Response: While management generally concurred with
              our recommendations, we do not consider its proposed actions
              to recommendations 1, 2, and 3 to be fully responsive.
              Specifically, management's response did not address submitting
              interim STI reports to OSTI; rather, it addressed only collecting
              and forwarding final STI reports to OSTI. Management's
              concurrence with recommendation 4 is considered responsive.



Page 8                                   Recommendations and Comments
Appendix 1
SCOPE         The audit was performed at Oakland (Oakland, California) and the
              DOE Office of Science (Washington, D.C.) from November 2000 to
              August 2001. The grants reviewed were those that Oakland had
              awarded, monitored, or closed out during FYs 1998-2000.

METHODOLOGY   To accomplish the audit objective, we:

              •   Reviewed applicable Federal and DOE regulations;

              •   Interviewed DOE contracting officials and program managers;

              •   Statistically sampled and reviewed 30 S&T grants administered by
                  Oakland (see Appendix 2);

              •   Reviewed grant files at Oakland and the DOE Office of Science for
                  receipt of interim and final technical reports;

              •   Requested support from OSTI to determine whether or not its
                  database contained technical reports for the 30 sample grants;

              •   Reviewed Government Performance and Results Act of 1993
                  performance measures related to the audit objective; and,

              •   Reviewed prior OIG and General Accounting Office audit reports.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed the significant internal controls with respect to the grant
              reporting process and the forwarding of grant results to OSTI. We
              performed an assessment of the reliability of computer-processed data
              and our test did not disclose any material weaknesses with computer-
              processed data. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We discussed the finding and
              responses with Oakland representatives on October 9, 2001.




Page 9                                                    Scope and Methodology
Appendix 2

             SAMPLING OBJECTIVE, TECHNIQUE, AND EVALUATION


Objective            The sampling objective was to estimate the number of grants for which
                     DOE did not collect technical reports specified in its S&T grants or
                     make the grant results available to the scientific community and the
                     public.


Technique            We used the Audit Command Language data analysis software to
                     randomly select the sample and the U.S. Army Audit Agency statistical
                     sampling software to evaluate the sampling results. The sampling
                     universe consisted of 1,953 S&T grants that Oakland administered
                     during FYs 1998-2000. A sample size of 30 grants was established
                     with a confidence level of 95 percent and an expected population error
                     rate of 20 percent. The sampling units were the individual S&T grants.

                     We used attribute sampling. The attributes tested were (1) whether
                     DOE (either Oakland or Headquarters) received technical reports
                     (interim and/or final reports) that the grant specified were due between
                     January 1998 and February 2001, and (2) whether DOE forwarded the
                     technical reports to OSTI by February 2001. Any grant where the
                     technical reports were not collected by DOE or the reports were not
                     forwarded to OSTI was considered an exception. We obtained copies
                     of the grants and excerpts of interim and final reports and discussed
                     grant reporting requirements with key DOE officials to determine why
                     the technical reports were not collected or were not forwarded to OSTI.


Evaluation           Based on our review of grant files and discussions with DOE
                     contracting officials and program managers, 19 of the 30 grants had
                     technical reports that were not forwarded to OSTI. At the 95 percent
                     confidence level, we projected that the number of grants for which
                     technical reports (interim and/or final reports) were not sent to OSTI
                     ranged from 902 to 1,571 grants, with a point estimate of 1,237 grants
                     for the 1,953 grants in the population.




Page 10                                Sampling Objective, Technique, and Evaluation
Appendix 3


                   RELATED OFFICE OF INSPECTOR GENERAL REPORTS


•   Dissemination of Research from the Environmental Molecular Sciences Laboratory, (DOE/IG-0526,
    September 2001). EMSL had not received research results or deliverables for 94 of 153 completed
    research projects, and had not forwarded to OSTI 640 of 700 deliverables that EMSL did receive.
    This occurred because the management system did not identify deliverables that were due. Further,
    contractor and DOE officials claimed that they did not fully understand the requirements for sending
    research results to OSTI.

•   Albuquerque Operations Office's Grant Administration, (DOE/IG-0524, September 2001).
    Albuquerque was not receiving final or interim deliverables specified in many of its grants awarded
    for research and development, education, as well as state and local activities. This occurred because
    Albuquerque did not have formal procedures in place to identify deliverables that were due. This
    impacted Albuquerque's ability to initiate follow-up actions when deliverables were overdue.

•   Audit of Peer-Reviewed Scientific Literature Generated at the Department's Light Sources,
    (DOE/IG-0520, August 2001). Only 44 percent of abstracts generated from work performed at
    DOE's light sources in FY 2000 were available for public dissemination through OSTI. This
    occurred because OSTI did not establish procedures to ensure that peer-reviewed journal literature
    for research performed at the light sources was collected in OSTI's PubSCIENCE database.

•   Audit of Departmental Receipt of Final Deliverables for Grant Awards, (DOE/IG-0415, December
    1997). Many grantees did not provide final technical and financial reports at the end of the grant
    projects. DOE had not received final deliverables on about 718 inactive grants, valued at about
    $232 million. Also, DOE officials waived reporting requirements in order to facilitate the closeout
    process, or extended performance periods inappropriately.

•   Audit of the Department of Energy's Scientific and Technical Information Process, (DOE/IG-0407,
    June 1997). DOE and its contractors had not implemented systems to effectively identify, collect,
    and disseminate STI on a life-cycle basis and OSTI was not receiving all STI generated by the
    management and operating contractors.

•   Audit of Selected Government-Funded Grants and Contracts at Princeton University, (ER-B-98-04,
    December 1997). The amount of labor effort and expenditures incurred on 20 Princeton agreements
    was questioned. This was exacerbated by Princeton's inadequate documentation of labor effort. The
    similarity of the work at Princeton and the commercial business and the major role played by one of
    the principal investigators at both Princeton and the commercial business obscured whether the labor
    effort and expenditures claimed were incurred solely for the benefit of Princeton's agreements.




Page 11                                                                                Related Reports
•   Audit of Economic Development Grants and a Cooperative Agreement with East Tennessee Not-
    For-Profit Organizations, (ER-B-97-01, October 1996). Significant amounts awarded to the East
    Tennessee Economic Council (ETEC) were not being used for their intended purposes. This
    occurred because DOE considered certain types of costs to be allowable even though the costs were
    outside the grants' approved scopes of work. Also, DOE advanced ETEC about $1.4 million more
    than it needed to establish a revolving loan fund. DOE also allowed ETEC to hold about $148,000
    in interest earned because the officials responsible for awarding and administering the grants were
    not familiar with Federal rules on cash advances and interest earned on them.




Page 12                                                                              Related Reports
Appendix 4




Page 13      Management Comments
Page 14   Management Comments
Page 15   Management Comments
Page 16   Management Comments
                                                                      Report No.: WR-B-02-02


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
